No. _______

IN THE
SUPREME COURT OF THE UNITED STATES
___________
DOMINIC LINDSEY,
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
___________
APPENDIX
___________

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Judgment and Sentence of the United States District Court for the
Northern District of Texas

APPENDIX A

Case: 18-10604

Document: 00515516206

Page: 1

Date Filed: 08/05/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 18-10604
UNITED STATES OF AMERICA,

FILED
August 5, 2020
Lyle W. Cayce
Clerk

Plaintiff - Appellee
v.
DOMINIC LINDSEY,
Defendant - Appellant

Appeal from the United States District Court
for the Northern District of Texas
ON REMAND FROM THE SUPREME COURT OF THE UNITED STATES
Before HIGGINBOTHAM, SMITH, and SOUTHWICK, Circuit Judges.
PER CURIAM:
This case was remanded by the United States Supreme Court. See
Lindsey v. United States, No. 19-7685, 2020 WL 2621673 (U.S. May 26, 2020).
In our previous opinion, we affirmed the judgment of the district court, relying
on this circuit’s rule that “[q]uestions of fact capable of resolution by the district
court upon proper objection at sentencing can never constitute plain error.”
United States v. Lindsey, 774 F. App’x 261, 261 (5th Cir. 2019) (quoting United
States v. Lopez, 923 F.2d 47, 50 (5th Cir. 1991)). Because the Supreme Court

Case: 18-10604

Document: 00515516206

Page: 2

Date Filed: 08/05/2020

No. 18-10604
in Davis v. United States, 140 S. Ct. 1060 (2020), rejected that absolute rule,
we again apply plain error review but with that corrective. AFFIRMED.
FACTUAL AND PROCEDURAL BACKGROUND
Dominic Lindsey was arrested on July 18, 2017, and subsequently pled
guilty to being a felon in possession of a firearm and to possession with intent
to distribute a controlled substance. He now challenges his sentence. Because
this case turns on the relationships between the conduct underlying Lindsey’s
offense of conviction and the conduct underlying certain state charges, we
examine that conduct and those charges.
First, on November 2, 2016, Lindsey was arrested by a Lewisville, Texas,
police officer after Lindsey was found asleep in the front passenger seat of a
vehicle idling in a parking lot, with a 9mm pistol on the vehicle floor and a
backpack containing five small bags of marijuana and $1330 cash. Lindsey
was charged in state court with possession of marijuana between two and four
ounces and unlawful possession of a firearm by a felon.
Second, on April 6, 2017, Lindsey was arrested by a Mesquite, Texas,
police officer after Lindsey was again found asleep in a vehicle idling in a
parking lot, and with 139.7 grams of marijuana, two pills marked “Xanax,” and
$1565 cash. When he awoke, he appeared intoxicated. Lindsey was charged
in state court based on that arrest with possession of marijuana between four
ounces and five pounds, driving while intoxicated (“DWI”), and possession of a
controlled substance.

After appellate briefing but before oral argument,

Lindsey was sentenced in state court to six months on the marijuana charge
and ninety days on the DWI charge. The controlled substance charge was
dismissed.
Third, on June 16, 2017, approximately two months later, Lindsey was
arrested by an Irving, Texas, police officer after a traffic stop of a vehicle
2

Case: 18-10604

Document: 00515516206

Page: 3

Date Filed: 08/05/2020

No. 18-10604
Lindsey was driving. A vehicle search revealed a small bag containing 27.3
grams of marijuana. Lindsey was charged in state court after this arrest with
possession of marijuana less than two ounces. After briefing but before oral
argument, this charge was dismissed.
Finally, on July 18, 2017, Lindsey was arrested by a Dallas, Texas, police
officer after a traffic stop and search of his vehicle revealed a Glock Model 26
9mm pistol with an extended magazine, bags containing 233.3 grams of
marijuana,

and

another

small

bag

containing

acetaminophen

and

hydrocodone. There were three passengers in the vehicle with Lindsey, one
woman and two minors. This is the conduct underlying the offense here and
the sentence under review. For this conduct, Lindsey was charged with being
a felon in possession of a firearm (Count I) and possessing with intent to
distribute a controlled substance (Count II). He pled guilty to these offenses.
Lindsey filed a motion requesting a downward variance and requesting
that any sentence imposed for his federal charges run concurrently to any
sentences imposed for the state charges arising from the same conduct.
Lindsey did not address the prospect of not-yet-imposed state sentences for the
earlier charges, but in support of his request for concurrent sentences, Lindsey
cited to Section 5G1.3(b) and (c) of the United States Sentencing Guidelines.
The district court imposed a within-Guidelines sentence of 78 months for
Count I and 60 months for Count II, with said terms to run concurrently.
Lindsey’s sentence was also to run concurrently to any state sentences imposed
for charges related to Lindsey’s July 18, 2017 conduct, but to run consecutively
to any state sentences imposed for the charges related to Lindsey’s earlier
conduct described above, because those “charges [were] unrelated to the
instant offense.”
Lindsey objected to the procedural and substantive reasonableness of his
sentence, but he did not object to his sentence’s being consecutive to any future
3

Case: 18-10604

Document: 00515516206

Page: 4

Date Filed: 08/05/2020

No. 18-10604
state sentence imposed for the earlier state court charges. Lindsey filed a
timely notice of appeal and challenges his sentence on this ground.
DISCUSSION
Because Lindsey did not preserve this error in district court, we review
his sentence for plain error. See Puckett v. United States, 556 U.S. 129, 135
(2009); Davis, 140 S. Ct. at 1061–62. To prevail on plain error review, a
defendant must show (1) an error that has not been affirmatively waived,
(2) that is clear or obvious, and (3) that affected his substantial rights. Id. If
a defendant satisfies these three conditions, we have the discretion to correct
the error but should do so only if it “seriously affects the fairness, integrity, or
public reputation of judicial proceedings.” Rosales-Mireles v. United States,
138 S. Ct. 1897, 1905 (2018).
I.

Sentencing with undischarged or anticipated terms of imprisonment
District courts have discretion to select whether sentences they impose

will run concurrently or consecutively to other sentences they impose, to
sentences that have been imposed in other proceedings, and to “anticipate[d]”
state sentences not yet imposed. See Setser v. United States, 566 U.S. 231,
236–237 (2012). The Sentencing Guidelines address sentences for defendants
who are subject to undischarged or anticipated state terms of imprisonment.
See U.S.S.G. § 5G1.3. The district court did not expressly state the Guidelines
provision under which it chose to impose the consecutive portion of Lindsey’s
sentence, and the parties disagree on which provision applies. For reference,
we quote the relevant provisions of Section 5G1.3 here:
(b) If . . . a term of imprisonment resulted from another offense
that is relevant conduct to the instant offense of conviction under
the provisions of subsections (a)(1), (a)(2), or (a)(3) of § 1B1.3
4

Case: 18-10604

Document: 00515516206

Page: 5

Date Filed: 08/05/2020

No. 18-10604
(Relevant Conduct), the sentence for the instant offense shall be
imposed as follows:
(1) the court shall adjust the sentence for any period of
imprisonment already served on the undischarged term of
imprisonment if the court determines that such period of
imprisonment will not be credited to the federal sentence by
the Bureau of Prisons; and
(2) the sentence for the instant offense shall be imposed to
run concurrently to the remainder of the undischarged term
of imprisonment.
(c) If . . . a state term of imprisonment is anticipated to result from
another offense that is relevant conduct to the instant offense of
conviction under the provisions of subsections (a)(1), (a)(2), or
(a)(3) of § 1B1.3 (Relevant Conduct), the sentence for the instant
offense shall be imposed to run concurrently to the anticipated
term of imprisonment.
(d) (Policy Statement) In any other case involving an undischarged
term of imprisonment, the sentence for the instant offense may be
imposed to run concurrently, partially concurrently, or
consecutively to the prior undischarged term of imprisonment to
achieve a reasonable punishment for the instant offense.
U.S.S.G. § 5G1.3(b)–(d).
Lindsey argues that the district court’s order that Lindsey’s sentence
term run consecutive to any future state sentence imposed for the earlier state
court charges was error because, according to Lindsey, the offenses underlying
his state court charges (arising from the events of November 2, 2016; April 6,
2017; and June 16, 2017) were “relevant conduct” with regard to the offense of
conviction here. Thus, Lindsey concludes, under Section 5G1.3(b) and (c), the
Guidelines recommend that his sentence should run concurrently to any
sentences arising from his earlier state court charges, and we should remand
for resentencing.
The Government argues that subsection (b) is not applicable because it
applies only when there is an “undischarged term of imprisonment,”
5

Case: 18-10604

Document: 00515516206

Page: 6

Date Filed: 08/05/2020

No. 18-10604
§ 5G1.3(b), which means a state term of imprisonment that already exists at
the time of sentencing. We have recognized that Section 5G1.3(b) “permits a
court to adjust a sentence if a defendant has served time on an undischarged
term.” United States v. Hankton, 875 F.3d 786, 792 (5th Cir. 2017). Subsection
(b) also then recommends that a district court order the adjusted sentence for
an instant offense “to run concurrently to the remainder of the undischarged
term.” § 5G1.3(b)(2). This does not apply to Lindsey; he had not begun serving
time on another sentence at the time of sentencing. Subsection (b) is not
applicable.
The Government next recognizes that Section 5G1.3(c), which concerns
“anticipated” state sentences, might apply. It does not, though, because the
Guidelines commentary explains that Subsection (d), and not earlier
subsections, governs “[c]ases in which only part of the prior offense is relevant
conduct to the instant offense.”

§ 5G1.3 cmt. n.2(A).

The Government

acknowledges that neither subsection (c) nor the relevant commentary states
that subsection (c) applies only when all, as opposed to merely part, of the prior
offense or offenses is relevant conduct to the instant offense. Nonetheless, the
Government interprets the manner in which the subsection (d) commentary is
phrased to mean that provision is the only one applicable when merely part,
as opposed to all, of the prior offense is relevant conduct to the instant offense.
Further, according to the Government, because subsection (d) allows for
the district court to impose a sentence that runs concurrently, partially
concurrently, or consecutively to the prior undischarged term, and because the
district court correctly determined that Lindsey’s anticipated sentences were,
at the very least, not entirely relevant conduct to the offense of conviction,
there was no error in ordering the federal sentence to run consecutively to
anticipated state court sentences.
6

Case: 18-10604

Document: 00515516206

Page: 7

Date Filed: 08/05/2020

No. 18-10604
It is not clear which subsection of Section 5G1.3 the district court
employed in imposing Lindsey’s sentence. Regardless, the uncertainties we
have described demonstrate that it was not plain error for the district court to
order that Lindsey’s federal sentence run consecutively to any future-imposed
sentence that arose out of the pending state court charges related to the earlier
offenses in question.
II.

Section 5G1.3(c): “Anticipated” state term of imprisonment
According to Section 5G1.3(c), if a state term of imprisonment is

anticipated to result from another offense that is relevant conduct to the
federal offense of conviction, the federal sentence shall run concurrently to the
anticipated term of imprisonment. § 5G1.3(c). “Relevant conduct” for drug and
gun offenses like those in Counts I and II here includes acts and omissions that
were part of the “same course of conduct” or “common scheme or plan” as the
offense of conviction. United States v. Ortiz, 613 F.3d 550, 557 (5th Cir. 2010);
§ 1B1.3(a)(2). These two concepts are closely related. § 1B1.3 cmt. n.5(B). We
need not consider the common scheme concept, though, because Lindsey does
not argue that his offenses fall into this category. See Cinel v. Connick, 15 F.3d
1338, 1345 (5th Cir. 1994).
For the concept of the same course of conduct, offenses must be
“sufficiently connected or related to each other as to warrant the conclusion
that they are part of a single episode, spree, or ongoing series of offenses.”
§ 1B1.3, cmt. n.5(B)(ii); see also Ortiz, 613 F.3d at 558. To determine whether
offenses so qualify, courts consider “the degree of similarity of the offenses, the
regularity (repetitions) of the offenses, and the time interval between the
offenses.” § 1B1.3, cmt. n.5(B)(ii); see also United States v. Nava, 957 F.3d 581,
586–87 (5th Cir. 2020).
7

Case: 18-10604

Document: 00515516206

Page: 8

Date Filed: 08/05/2020

No. 18-10604
A.

Degree of similarity

In evaluating the degree of similarity, we “inquire whether there are
distinctive similarities between the offense of conviction and the remote
conduct that signal that they are part of a course of conduct rather than
isolated, unrelated events that happen only to be similar in kind.” United
States v. Rhine, 583 F.3d 878, 888 (5th Cir. 2009) (quotation marks omitted).
Lindsey emphasizes the similarities between his state court charges and
the offense of conviction.

Specifically, (1) each offense involved his being

discovered in his vehicle, (2) each offense involved possession of marijuana,
and (3) the presence of a firearm during both his November 2, 2016 arrest and
his July 18, 2017 offense of conviction.
The Government emphasizes that Lindsey had widely varying amounts
of marijuana in every offense, and only sometimes was he in possession of a
firearm. The Government also states that whether Lindsey was in possession
of a controlled substance varied, and when he was, the substance was not the
same each time (Xanax on April 6, 2017, but hydrocodone on July 18, 2017).
It is important that the analysis of similarity not be performed “at such
a level of generality as to render it meaningless.” Rhine, 583 F.3d at 888. Here,
even though drugs, and specifically marijuana, were present during each
offense, the marijuana-related charges were for widely different amounts.
Further, while Lindsey was discovered alone and asleep in his vehicle on the
occasions underlying the first two state charges, the offense of conviction was
the result of a traffic stop with passengers in the vehicle. Although all of his
offenses took place in the Dallas metropolitan area, none of them were in the
same location. Finally, there was no evidence of other possible similarities,
such as a common source, supplier, or destination of the drugs, and there was
no evidence of any accomplices, much less common accomplices.

These

differences, as well as the absence of evidence of possible similarities, suggest
8

Case: 18-10604

Document: 00515516206

Page: 9

Date Filed: 08/05/2020

No. 18-10604
that the “similarity” factor does not weigh in Lindsey’s favor. See United States
v. Wall, 180 F.3d 641, 646 (5th Cir. 1999). Thus, to conclude that the offenses
were unrelated was not clearly or obviously an error on the basis of potential
similarities.
B.

Regularity

When considering the regularity factor, we “inquire whether there is
evidence of a regular, i.e., repeated, pattern of similar unlawful conduct
directly linking the purported relevant conduct and the offense of conviction.”
Rhine, 583 F.3d at 889–90.
Lindsey argues that his offenses, which occurred on November 2, 2016,
approximately five months later on April 6, 2017, 1 and approximately three
months later on July 18, 2017, were sufficiently regular for this factor to weigh
in favor of finding relevant conduct. He relies on a case where we concluded
that a district court had not clearly erred in finding that bimonthly offenses
were “regular.” United States v. Ocana, 204 F.3d 585, 591 (5th Cir. 2000).
The Government concedes that “regularity may be present,” but it
highlights that the offenses are still not “sufficiently connected or related . . .
as to warrant the conclusion that they are part of a single episode, spree, or
ongoing series of offenses.” Rhine, 583 F.3d at 890 (quoting § 1B1.3, cmt.
n.5(B)(ii)).
This factor does not weigh for either party. There may have been a faint
pattern connecting Lindsey’s conduct; he possessed marijuana in his vehicle in
every offense, and he had a firearm in the vehicle in one of the state offenses
as well as the offense of conviction. His offenses occurred over the course of
several months, but the time intervals varied, and as we recognized in our

All charges resulting from Lindsey’s June 16, 2017 conduct have been dropped, and
therefore they do not affect our analysis.
1

9

Case: 18-10604

Document: 00515516206

Page: 10

Date Filed: 08/05/2020

No. 18-10604
similarity analysis, so did the details of the conduct, suggesting that while
Lindsey may have regularly committed comparable crimes, the earlier offenses
were not “directly link[ed]” to his offense of conviction.

In the end, any

potential “regularity” of Lindsey’s conduct is not enough to say that the district
court’s conclusion that the offenses were “unrelated” was clearly and obviously
erroneous.
C.

Time interval between offenses

Finally, Lindsey argues all the relevant conduct occurred within one year
preceding the conduct underlying his federal offense, sufficient for the
temporal proximity factor to weigh in his favor. See Ocana, 204 F.3d at 590.
The Government concedes that all the offenses occurred within a one-year
period and that this court has “generally used a year as the benchmark for
determining temporal proximity.” Rhine, 583 F.3d at 886–87. It maintains
that mere temporal proximity is not enough to show that that offenses were
part of the “same course of conduct.”
In the end, the offenses (1) were not sufficiently similar, (2) displayed at
most a weak pattern of “regularity,” and (3) did indeed take place within a oneyear window, sometimes only a few months apart. We conclude the offenses
were not part of the “same course of conduct” such that the district court clearly
and obviously erred in finding the offenses were unrelated.
District courts have discretion to select whether sentences they impose
will run concurrently or consecutively to anticipated state sentences that have
not yet been imposed. See Setser, 566 U.S. at 236–237. Here, the district
court’s conclusion that the earlier state “charges [were] unrelated to the
instant offense,” and thus its order that Lindsey’s federal sentence run
consecutively to any state sentences arising from the earlier charges, was not
plain — i.e., clear and obvious — error under Section 5G1.3(c).
10

Case: 18-10604

Document: 00515516206

Page: 11

Date Filed: 08/05/2020

No. 18-10604
III.

Section 5G1.3(d): Any other case involving an undischarged term of
imprisonment
The Guidelines provide that “the sentence for the instant offense may be

imposed to run concurrently, partially concurrently, or consecutively to the
prior undischarged term of imprisonment to achieve a reasonable punishment
for the instant offense.” § 5G1.3(d). The commentary on the application of
subsection (d) discuss “Complex Situations:”
Occasionally, the court may be faced with a complex case in which
a defendant may be subject to multiple undischarged terms of
imprisonment that seemingly call for the application of different
rules. In such a case, the court may exercise its discretion in
accordance with subsection (d) to fashion a sentence of appropriate
length and structure it to run in any appropriate manner to
achieve a reasonable punishment for the instant offense.
§ 5G1.3, cmt. n.4(D).
Lindsey does not argue that the consecutiveness of his federal sentence
was plain error under § 5G1.3(d), so we could deem the argument abandoned.
Cinel, 15 F.3d at 1345. Even if Lindsey had raised an argument in this regard,
the Guidelines instruct the district court to consider a number of factors,
including the 18 U.S.C. § 3553(a) factors, in making this decision. § 5G1.3,
cmt. n.4(A). Any argument that the district court should have weighed these
factors differently would be an insufficient basis for reversal. See United States
v. Heard, 709 F.3d 413, 435 (5th Cir. 2013).
AFFIRMED.

11

APPENDIX B

Case 3:17-cr-00512-M Document 51 Filed 01/14/20

Page 1 of 7 PageID 205

UNITED STATES DISTRICT COURT

NORTHERN DISTRICT OF TEXAS DALLAS DIVISION

UNITED STATES OF AMERICA

§
§
§
§
§
§
§

v.
DOMINIC LINDSEY
Defendant.

AMENDED JUDGMENT IN A CRIMINAL CASE

Case Number: 3:17-CR-00512-M(1)
USM Number: 56408-177
Leandro Delgado
Defendant’s Attorney

THE DEFENDANT:
☐ pleaded guilty to count(s)
pleaded guilty to count(s) before a U.S.

☒ Magistrate Judge, which was accepted by the
☐
☐

court.
pleaded nolo contendere to count(s) which was
accepted by the court
was found guilty on count(s) after a plea of not
guilty

Count 1 of the Indictment, filed on October 11, 2017

The defendant is adjudicated guilty of these offenses:
Title & Section / Nature of Offense

Offense Ended

Count

18 USC §§ 922(g)(1) and 924(a)(2) Felon in Possession of a Firearm

07/18/2017

1

21 USC § 841(a)(1) and (b)(1)(D) Possession with Intent to Distribute a Controlled Substance

07/18/2017

2

The defendant is sentenced as provided in pages 2 through 7 of this judgment. The sentence is imposed pursuant to the Sentencing
Reform Act of 1984.

☐ The defendant has been found not guilty on count(s)
☐ Count(s) ☐ is ☐ are dismissed on the motion of the United States
It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify the court and United States attorney of material changes in economic
circumstances.

May 11, 2018

Date of Imposition of Judgment

Signature of Judge

BARBARA M. G. LYNN
CHIEF UNITED STATES DISTRICT JUDGE
Name and Title of Judge

January 13, 2020
Date

Case 3:17-cr-00512-M Document 51 Filed 01/14/20

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 2 of 7 PageID 206

Judgment -- Page 2 of 7

DOMINIC LINDSEY
3:17-CR-00512-M(1)

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a total term of:
SEVENTY-EIGHT (78) MONTHS.
This term consists of SEVENTY-EIGHT (78) MONTHS as to count 1 and SIXTY (60) MONTHS as to count 2 to run
concurrently as to count 1 for a total aggregate term of SEVENTY-EIGHT (78) MONTHS.
This sentence shall run concurrently with any sentences imposed in the defendant's pending charges for Unlawful Possession
of a Firearm by Felon, Case Nos. F-1756574, Possession of Marijuana Less Than or Equal to 5 Pounds but Greater Than 4
Ounces, Case No. F-1756573, pending in the Criminal District Court of Dallas County 6, and Possession of a Controlled
Substance PG 3 Less Than 28 Grams, Case No. MA1758375, pending in Dallas County Criminal Court 6, as these cases are
related to the instant offense. This sentence shall also run concurrently with the sentence imposed in the defendant's charge for
Evading Arrest/Detention With Previous Conviction, Case No. F-1756309.
The sentence shall run consecutive to any sentences imposed in the defendant's pending charges for Possession of Marijuana
Less Than 2 Ounces, Case No. MB1734211; Possession of a Controlled Substance PG 3 Less Than 28 Grams, Case No.
MA1741093; Driving While Intoxicated 1st.15, Case No. MA1742154; and Violation of Protective Order, Case No.
MA1642233, pending in Dallas County Criminal Court 6; as well as the defendant's pending charges for Assault Bodily Injury
Family Violence Enhanced, Case No. F-1641203; Possession of a Marijuana Greater Than 4 Ounces but Less Than or Equal to
5 Pounds, Case No. F-1740655, pending in the Criminal District Court of Dallas County 6, in Dallas, Texas, and the
defendant's pending charge for Aggravated Kidnapping, Case No. F-1475660, in the 283rd Judicial District Court in Dallas,
Texas; and the defendant's pending charge for Unlawful Possession of a Firearm by Felon, Case No. 17916362, pending in the
362nd Judicial District Court of Denton County, and the defendant's pending charge for Possession of Marijuana Less Than
or Equal to 4 Ounces but Greater Than 2 Ounces, Case No. CR2017-00008-D, pending in Denton County Criminal Court 4 in
Denton, Texas, as these charges are unrelated to the instant offense.

☐ The court makes the following recommendations to the Bureau of Prisons:
☒ The defendant is remanded to the custody of the United States Marshal.
☐ The defendant shall surrender to the United States Marshal for this district:
☐ The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
☐ before 2 p.m. on
☐ as notified by the United States Marshal.
☐ as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:
Defendant delivered on
at

to
, with a certified copy of this judgment.
UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

Case 3:17-cr-00512-M Document 51 Filed 01/14/20

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 3 of 7 PageID 207

Judgment -- Page 3 of 7

DOMINIC LINDSEY
3:17-CR-00512-M(1)

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of: THREE (3) YEARS on each of counts
1 and 2 to run concurrently with one another.
The defendant must report to the probation office in the district to which the defendant is released within 72 hours of release
from the custody of the Bureau of Prisons.

MANDATORY CONDITIONS
1.

You must not commit another federal, state or local crime.

2.

You must not unlawfully possess a controlled substance.

3.

You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests thereafter, as determined by the court.

☐ The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
substance abuse. (check if applicable)
You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence
of restitution. (check if applicable)
You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)

4.

☐

5.

☒
☐ You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et

6.

seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which
you reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)

7.

☐ You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

Case 3:17-cr-00512-M Document 51 Filed 01/14/20

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 4 of 7 PageID 208

Judgment -- Page 4 of 7

DOMINIC LINDSEY
3:17-CR-00512-M(1)

STANDARD CONDITIONS OF SUPERVISION
1.
2.
3.
4.
5.
6.
7.
8.
9.
10.
11.
12.
13.

the defendant shall not leave the judicial district without the permission of the court or probation officer;
the defendant shall report to the probation officer in a manner and frequency directed by the court or probation officer;
the defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation officer;
the defendant shall support his or her dependents and meet other family responsibilities;
the defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling, training, or other
acceptable reasons;
the defendant shall notify the probation officer at least ten days prior to any change in residence or employment;
the defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any controlled
substance or any paraphernalia related to any controlled substances, except as prescribed by a physician;
the defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;
the defendant shall not associate with any persons engaged in criminal activity and shall not associate with any person convicted of a
felony, unless granted permission to do so by the probation officer;
the defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit confiscation of any
contraband observed in plain view of the probation officer;
the defendant shall notify the probation officer within seventy-two hours of being arrested or questioned by a law enforcement officer;
the defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency without the
permission of the court; and
as directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the defendant’s criminal
record or personal history or characteristics and shall permit the probation officer to make such notifications and to confirm the defendant’s
compliance with such notification requirement.

Case 3:17-cr-00512-M Document 51 Filed 01/14/20

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 5 of 7 PageID 209

Judgment -- Page 5 of 7

DOMINIC LINDSEY
3:17-CR-00512-M(1)

SPECIAL CONDITIONS OF SUPERVISION
The defendant shall participate in a program (inpatient and/or outpatient) approved by the U.S. Probation
Office for treatment of narcotic, drug, or alcohol dependency, which will include testing for the detection of
substance use or abuse. If the defendant is receiving treatment, the defendant may not use alcohol and/or all
other intoxicants at any time. The defendant shall contribute to the costs of services rendered (copayment)
at a rate of at least $10 per month.

Case 3:17-cr-00512-M Document 51 Filed 01/14/20

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 6 of 7 PageID 210

Judgment -- Page 6 of 7

DOMINIC LINDSEY
3:17-CR-00512-M(1)

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
Fine
Assessment
$200.00
$.00
TOTALS

Restitution
$.00

☐ The determination of restitution is deferred until

An Amended Judgment in a Criminal Case (AO245C) will be entered
after such determination.
The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment. However, pursuant to 18 U.S.C.
§ 3664(i), all nonfederal victims must be paid before the United States is paid.

☐ Restitution amount ordered pursuant to plea agreement $
☐ The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
☐

the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be
subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:
☐ the interest requirement is waived for the
☐ fine
☐ restitution

☐ the interest requirement for the

☐ fine

☐ restitution is modified as follows:

* Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or after
September 13, 1994, but before April 23, 1996.

Case 3:17-cr-00512-M Document 51 Filed 01/14/20

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 7 of 7 PageID 211

Judgment -- Page 7 of 7

DOMINIC LINDSEY
3:17-CR-00512-M(1)

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

due immediately, balance due

☐ Lump sum payments of $
☐ not later than
☐ in accordance

, or

☐

C,

☐

D,

B

☐ Payment to begin immediately (may be combined with

C

☐ Payment in equal

☐

E, or

☐

F below; or

☐

C,

☐

D, or

☐

(e.g., weekly, monthly, quarterly) installments of $
(e.g., months or years), to commence

F below); or

over a period of

(e.g., 30 or 60 days) after the date of this judgment;

or
D

☐ Payment in equal 20 (e.g., weekly, monthly, quarterly) installments of $
(e.g., months or years), to commence
imprisonment to a term of supervision; or

over a period of

(e.g., 30 or 60 days) after release from

(e.g., 30 or 60 days) after release
from imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that
time; or

E

☐ Payment during the term of supervised release will commence within

F

☒ Special instructions regarding the payment of criminal monetary penalties:
It is ordered that the Defendant shall pay to the United States a special assessment of $200.00 for Counts 1 and 2,
which shall be paid immediately. Said special assessment shall be paid to the Clerk, U.S. District Court.

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’
Inmate Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.
 Joint and Several
See above for Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and
Several Amount, and corresponding payee, if appropriate.

☐ Defendant shall receive credit on his restitution obligation for recovery from other defendants who contributed to the same
loss that gave rise to defendant's restitution obligation.

☐ The defendant shall pay the cost of prosecution.
☐ The defendant shall pay the following court cost(s):
☒ The defendant shall forfeit the defendant’s interest in the following property to the United States:
The defendant shall forfeit the following property to the government: one Glock, Model 26,
9x 19-millimeter pistol, bearing Serial No. VWN903, and all ammunition recovered.

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of prosecution and court costs.

